APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:
Appendix D:

Court of appeals opinion,
May 7, 2021..................................................... 1a
District court order,
October 2, 2019 ............................................ 58a
District court order,
October 2, 2019 ............................................ 59a
Statutory and Sentencing Guidelines
provisions involved ...................................... 61a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14267
D.C. Docket No. 4:97-cr-00182-JRH-BKE-1

UNITED STATES OF AMERICA
Plaintiff-Appellee
v.
THOMAS BRYANT, JR.,
Defendant-Appellant

Filed: May 7, 2021
Before: MARTIN, LUCK and BRASHER,
Circuit Judges.
OPINION
BRASHER, Circuit Judge:
Thomas Bryant is a corrupt former police officer who
was sentenced to prison for running drugs and guns. He
filed a motion seeking a reduction in his sentence under
18 U.S.C. § 3582(c)(1)(A), and the district court denied
that motion based on the Sentencing Commission’s policy
(1a)

2a
statement found at U.S.S.G. § 1B1.13. In resolving Bryant’s appeal, we must answer two questions about the relationship between Section 3582(c)(1)(A) and 1B1.13.
First, we must decide whether district courts reviewing defendant-filed motions under Section 3582(c)(1)(A)
are bound by the Sentencing Commission’s policy statement. Under Section 3582(c)(1)(A), a court can reduce an
otherwise final sentence for “extraordinary and compelling reasons,” as long as the reduction is “consistent with
applicable policy statements issued by the Sentencing
Commission.” The statute commands the Commission to
publish a policy statement that defines “extraordinary
and compelling reasons,” 28 U.S.C. § 994(t), and the Commission did: 1B1.13, which is entitled “Reduction in Term
of Imprisonment under 18 U.S.C. § 3582(c)(1)(A).” At the
time, the statute required all motions to be filed by the
BOP. The policy statement repeats that then-existing
statutory language and, in its application notes, lists several circumstances that are “extraordinary and compelling reasons” that justify a sentence reduction.
So far, so good. But after Congress changed the statute to allow defendants to file motions in addition to the
BOP, several of our sister circuits have held that 1B1.13
is not an “applicable policy statement[]” for those defendant-filed motions. This is so, they say, because the policy
statement, quoting the pre-existing statute’s language,
begins with the following phrase: “Upon motion of the Director of the Bureau of Prisons.” Based mostly on that
language, our sister circuits have held that this policy
statement is not an “applicable policy statement” that
binds judicial discretion as to defendant-filed motions.
We disagree with that reasoning. The statute’s procedural change does not affect the statute’s or 1B1.13’s sub-

3a
stantive standards, specifically the definition of “extraordinary and compelling reasons.” The Commission’s standards are still capable of being applied and relevant to all
Section 3582(c)(1)(A) motions, whether filed by the BOP
or a defendant. And the structure of the Guidelines, our
caselaw’s interpretation of “applicable policy statement,”
and general canons of statutory interpretation all confirm
that 1B1.13 is still an applicable policy statement for a
Section 3582(c)(1)(A) motion, no matter who files it.
Second, because we conclude that 1B1.13 is an applicable policy statement, we must determine how district
courts should apply that statement to motions filed under
Section 3582(c)(1)(A). Bryant argues that Application
Note 1(D) of 1B1.13 conflicts with the statute’s recent
amendment. As a catch-all provision, Application Note
1(D) says that a court may grant a motion if, “[a]s determined by the Director of the Bureau of Prisons, there exists in the defendant’s case an extraordinary and compelling reason other than, or in combination with, the reasons
described in subdivisions (A) through (C).” Bryant argues
that, because the statute now allows for defendant-filed
motions, we should replace “as determined by the [BOP]”
with “as determined by the [court].” This alteration to the
policy statement would give courts effectively unlimited
discretion to grant or deny motions under Application
Note 1(D).
But we cannot do that. Application Note 1(D) is not inconsistent with the procedural change in the statute that
allows defendants to file motions. Because we can apply
both the amended Section 3582(c)(1)(A) and Application
Note 1(D), we must apply both.
In short, 1B1.13 is an applicable policy statement for
all Section 3582(c)(1)(A) motions, and Application Note
1(D) does not grant discretion to courts to develop “other

4a
reasons” that might justify a reduction in a defendant’s
sentence. Accordingly, we affirm.
I. BACKGROUND
A. Factual Background
Thomas Bryant used to be a cop. But he abused that
position, flouting the law that he had vowed to uphold. For
years, Bryant worked with other officers to help traffic
cocaine. Armed and in uniform—often in police vehicles—
they acted as the cocaine couriers’ personal security detail. Bryant also sold cocaine and stolen guns himself. And
he passed along confidential police information to the cocaine gang.
But duplicity begets duplicity. Soon enough, one of the
informed became an informant and turned on his fellow
criminals. A jury convicted Bryant of multiple drug and
gun offenses. The district court eventually sentenced him
to 292 months imprisonment to be followed by a mandatory, consecutive 300 months.
B. Statutory Background
In 2018, Congress passed and the President signed the
First Step Act. Bryant brought his motion to reduce his
sentence under that Act. To understand the FSA, we look
first to the history of federal sentencing.
For a long time, sentencing judges had nearly unbridled discretion, bound only by statutory minimums or
maximums. United States v. Irey, 612 F.3d 1160, 1180–81
(11th Cir. 2010) (en banc); see also Dorszynski v. United
States, 418 U.S. 424, 431 (1974) (“[O]nce it is determined
that a sentence is within the limitations set forth in the
statute under which it is imposed, appellate review is at
an end.”). Parole boards also had discretion to release a
prisoner after he had served as little as one third of his

5a
sentence, see, e.g., Barber v. Thomas, 560 U.S. 474, 482
(2010), obscuring at sentencing the actual amount of time
that the defendant would serve. Cf. Setser v. United
States, 566 U.S. 231, 248 (2012) (Breyer, J., dissenting)
(explaining the system as involving “a parole commission
and a judge trying to second-guess each other about the
time an offender will actually serve in prison”). That system spawned drastic disparities and uncertainty in sentencing, which drove Congress to pass the Sentencing Reform Act of 1984. See Irey, 612 F.3d at 1180–81.
The SRA sought uniformity and honesty in sentencing. To achieve uniformity, it created the U.S. Sentencing
Commission and delegated to it the power to create a comprehensive system of sentencing guidelines. See Peugh v.
United States, 569 U.S. 530, 535 (2013). To achieve honesty, it abolished the parole system and prohibited courts
from “modify[ing] a term of imprisonment once it ha[d]
been imposed,” 18 U.S.C. § 3582(c). See Barber, 560 U.S.
at 481–82.
Nonetheless, the SRA provided three narrow exceptions to that general prohibition on sentence modification,
one of which is relevant here. See United States v. Denson, 963 F.3d 1080, 1086 (11th Cir. 2020). Section 3582
(c)(1)(A) allows a court to reduce a term of imprisonment
for extraordinary and compelling reasons. But the SRA
did not put district courts in charge of determining what
would qualify as extraordinary and compelling reasons
that might justify reducing a prisoner’s sentence. Instead,
it directed the Commission to define “what should be considered extraordinary and compelling reasons for a sentence reduction, including the criteria to be applied and a
list of specific examples” and to do so through “general
policy statements regarding the sentencing modification

6a
provisions in section 3582(c)(1)(A).” 28 U.S.C. § 994(t); see
also 28 U.S.C. § 994(a)(2)(C).
The only boundary the SRA placed on the Commission’s definition was that “[r]ehabilitation … alone shall
not be considered an extraordinary and compelling reason.” 28 U.S.C. § 994(t). And it required district courts to
follow that definition. 18 U.S.C. § 3582(c)(1)(A); see Dillon
v. United States, 560 U.S. 817, 826–27 (2010); United
States v. Colon, 707 F.3d 1255, 1262 (11th Cir. 2013). Put
another way, the SRA made clear that a district court cannot grant a motion for reduction if it would be inconsistent
with the Commission’s policy statement defining “extraordinary and compelling reasons.” 18 U.S.C.
§ 3582(c)(1)(A).
It took the Commission over twenty years to publish
its substantive definition of “extraordinary and compelling reasons.” U.S.S.G. § 1B1.13 (U.S. Sent’g Comm’n
2007). That definition listed four reasons as extraordinary
and compelling: (i) a “terminal illness”; (ii) a “permanent
physical or medical condition” or “deteriorating physical
or mental health because of the aging process,” which
“substantially diminishes the ability of the defendant to
provide self-care” in prison; (iii) “death or incapacitation
of the defendant’s only family member capable of caring
for” a minor child; and (iv) “[a]s determined by the Director of the Bureau of Prisons, … an extraordinary and compelling reason other than, or in combination with, the reasons described in subdivisions (i), (ii), and (iii).” Id. at
§ 1B1.13 cmt. n.1(A). In addition to that definition, the policy statement—found at U.S.S.G. § 1B1.13—required
that a defendant not be a danger to society. Id. at
§ 1B1.13(2).
But the Commission’s twenty-year delay mattered little because Section 3582(c)(1)(A) allowed only the BOP to

7a
file those motions, and the BOP rarely did so. In fact, the
BOP failed to file reduction motions even if a defendant’s
reasons were extraordinary and compelling. The BOP’s
reticence sparked criticism. For example, a DOJ report
found that the “BOP [did] not properly manage the compassionate-release program, resulting in inmates who
may be eligible candidates for release not being considered.” U.S. Dep’t of Justice: The Federal Bureau of Prisons’ Compassionate Release Program 11 (Apr. 2013).
In response to the criticism, the Commission conducted an “in-depth review,” held a public hearing, and
revised 1B1.13. U.S.S.G. App. C, Amend. 799 at 135 (effective Nov. 1, 2016). It expanded, reorganized, and clarified the four categories of extraordinary and compelling
reasons. See id. at 132–33. Now, the first category—“medical condition of the defendant”—no longer requires “a
specific prognosis of life expectancy” to grant relief for a
terminal illness. U.S.S.G. § 1B1.13 cmt. n.1(A)(i) (U.S.
Sent’g Comm’n 2016). The medical-condition category
also subsumed the previous inability-for-self-care category and allows relief for “serious functional or cognitive
impairment” that “substantially diminished” the ability
for self-care. Id. at § 1B1.13 cmt. n.1(A)(ii). The new second category—“age of the defendant”—explains that deterioration due to age is extraordinary and compelling
even if it does not diminish the ability for self-care as long
as the defendant is at least 65 years old and has served the
lesser of 10 years or 75 percent of his sentence. Id. at
§ 1B1.13 cmt. n.1(B). The third category—“family circumstances”—is broader, now allowing relief if a defendant
becomes the only potential caregiver for a minor child or
for a spouse. Id. at § 1B1.13 cmt. n.1(C). And the catch-all
“other reasons” category remained the same. Id. at
§ 1B1.13 cmt. n.1(D).

8a
The 2016 amendment also added a clause making explicit that 1B1.13 “implements 28 U.S.C. § 994(a)(2) and
(t),” which required it “to develop general policy statements regarding … the appropriate use of the sentence
modification provisions set forth in 18 U.S.C. § 3582(c)”
and mandated that it “describe what should be considered
extraordinary and compelling reasons for sentence reduction.” U.S.S.G. § 1B1.13 cmt. (backg’d). It changed the title from “Reduction in Term of Imprisonment as a Result
of Motion by Director of Bureau of Prisons (Policy Statement)” to “Reduction in Term of Imprisonment Under 18
U.S.C. § 3582(c)(1)(A) (Policy Statement).” U.S.S.G. App.
C, Amend. 799 at 132 (effective Nov. 1, 2016).
It even made a direct plea to the BOP, encouraging it
to file Section 3582(c)(1)(A) motions “if the defendant
meets any of the circumstances set forth in [1B1.13].”
U.S.S.G. § 1B1.13 cmt. n.4 (2016). In explaining its reasons for that plea, the Commission pointed to testimony
and public comment that described the “inefficiencies” in
the BOP review of Section 3582(c)(1)(A) applications,
which could “delay or deny [relief], even in cases where
the applicant appear[ed] to meet the criteria for eligibility.” U.S.S.G. App. C, Amend. 799 at 136 (Reason for
Amendment) (effective Nov. 1, 2016). It acknowledged
that “the Commission’s policy statement is not legally
binding on the [BOP]” and explained that “the new commentary [was] intended to encourage the [BOP Director]
… to file a motion under section 3582(c)(1)(A) when the
criteria in this policy statement are met.” Id. at 136–37.
Most recently, the FSA expanded who could file a motion for a reduction of sentence. The statute initially read
“the court, upon motion of the Director of the Bureau of
Prisons, may reduce the term of imprisonment.” 18 U.S.C.
§ 3582(c)(1)(A) (1984) (amended 2018). The First Step Act

9a
added the italicized language: “the court, upon motion of
the Director of the Bureau of Prisons, or upon motion of
the defendant after the defendant has fully exhausted all
administrative rights to appeal a failure of the Bureau of
Prisons to bring a motion on the defendant’s behalf or the
lapse of 30 days from the receipt of such a request by the
warden of the defendant’s facility, whichever is earlier,
may reduce the term of imprisonment.” Pub. L. No. 115391, § 603(b), 132 Stat. 5194, 5239 (2018) (amending 18
U.S.C. § 3582). In addition to allowing defendant-filed
Section 3582(c)(1)(A) motions, the FSA also required the
BOP to notify prisoners when they may be eligible and to
help them craft and file their motions. See Pub. L. No. 115391, § 603(b), 132 Stat. 5194, 5239–41 (2018) (amending 18
U.S.C. § 3582).
C. Procedural Background
Post-FSA, Bryant filed a Section 3582(c)(1)(A) motion,
arguing that his situation presented extraordinary and
compelling reasons warranting a reduction. In support, he
pointed to several facts: (1) he would not be subject to a
25-year mandatory minimum if he were sentenced today;
(2) he received a higher sentence than some of his coconspirators because he chose to go to trial; and (3) he has a
good record of rehabilitation in prison. He asked that the
district court reduce his sentence to time-served—releasing him over 25 years early. The government responded
that none of those reasons, alone or in combination, meet
the Sentencing Commission’s binding definition of extraordinary and compelling in 1B1.13. The district court
agreed and denied Bryant’s motion “for the reasons
stated in the Government’s response.”

10a
II. STANDARD OF REVIEW
We review de novo both determinations about a defendant’s eligibility for a Section 3582(c) sentence reduction and questions of statutory interpretation. United
States v. St. Amour, 886 F.3d 1009, 1013 (11th Cir. 2018);
United States v. Jones, 962 F.3d 1290, 1296 (11th Cir.
2020); see also Dillon v. United States, 560 U.S. 817, 826–
27 (2010) (treating the eligibility determination as one of
statutory interpretation). We also “review de novo the interpretation of a sentencing guideline.” United States v.
Warren, 820 F.3d 406, 407 (11th Cir. 2016). Because Section 3582(c)(1)(A) permissively states that a district court
“may” reduce a sentence after eligibility is established, we
review for abuse of discretion a district court’s grant or
denial of an eligible defendant’s reduction request. 18
U.S.C. § 3582(c)(1)(A) (stating that, “if [a court] finds”
that a defendant meets both eligibility criteria, it “may reduce” the sentence after considering the 3553(a) factors);
see Dillon, 560 U.S. at 826–27 (holding in an analogous
Section 3582(c)(2) analysis that after a court establishes
eligibility, it determines “in its discretion” whether “the
authorized reduction is warranted, either in whole or in
part, according to the factors set forth in § 3553(a)”).
III. DISCUSSION
Finality is “essential to the operation of our criminal
justice system.” Teague v. Lane, 489 U.S. 288, 309 (1989).
“Deterrence depends upon [it.] … Rehabilitation demands [it.] … [And it] benefits the victim by helping [her]
put the trauma of the crime and prosecution behind
[her].” Patterson v. Sec’y, Fla. Dep’t of Corr., 849 F.3d
1321, 1325 (11th Cir. 2017) (cleaned up). That is why
courts are generally forbidden from altering a sentence
once it becomes final. United States v. Jones, 962 F.3d
1290, 1297 (11th Cir. 2020). But as a “congressional act of

11a
lenity,” Section 3582(c) authorizes three narrow sentencemodification proceedings. United States v. Maiello, 805
F.3d 992, 1000 (11th Cir. 2015) (quoting Dillon v. United
States, 560 U.S. 817, 828 (2010)).
One of those—Section 3582(c)(1)(A)—allows a court to
reduce a sentence for extraordinary and compelling reasons. But Section 3582(c)(1)(A) allows a sentence reduction only if “such a reduction is consistent with applicable
policy statements issued by the Sentencing Commission,”
one of which must define “extraordinary and compelling
reasons,” 28 U.S.C. § 994(t). See also 28 U.S.C. § 994(a)(2).
The Commission published its definition at U.S.S.G.
§ 1B1.13 in its policy statement titled “Reduction in Term
of Imprisonment Under 18 U.S.C. § 3582(c)(1)(A).”
U.S.S.G. § 1B1.13.
The answer to whether the Commission’s definition of
“extraordinary and compelling reasons” binds district
courts is clear. Indeed, both the Supreme Court and this
Court have held that Congress’s consistent-with requirement makes the relevant policy statements binding on district courts. See Dillon v. United States, 560 U.S. 817,
826–27 (2010); United States v. Colon, 707 F.3d 1255, 1262
(11th Cir. 2013). But parts of the current policy statement
are in tension with the FSA. For example, the policy statement still opens with the prefatory clause “[u]pon motion
of the Director of the Bureau of Prisons under 18 U.S.C.
§ 3582(c)(1)(A)” and later states that “[a] reduction under
this policy statement may be granted only upon motion by
the Director of the Bureau of Prisons pursuant to 18
U.S.C. § 3582(c)(1)(A).” U.S.S.G § 1B1.13 & cmt. n.4.
Some argue that other parts of 1B1.13 are also in tension
with the FSA—mainly, Application Note 1(D), which describes the fourth category of extraordinary and compel-

12a
ling reasons as any unlisted reason that the BOP puts forward. This debate has spawned two questions: (1) Is
1B1.13 an applicable policy statement for defendant-filed
Section 3582(c)(1)(A) motions? (2) If it is, how does a court
apply Application Note 1(D) to a motion like Bryant’s?
Bryant’s main argument is about Application Note
1(D). But several of our sister circuits have concluded that
1B1.13 is not an “applicable policy statement[]” at all for
defendant-filed motions. United States v. Brooker, 976
F.3d 228 (2d Cir. 2020); United States v. McCoy, 981 F.3d
271 (4th Cir. 2020); United States v. Shkambi, No. 2040543 (5th Cir. April 7, 2021); United States v. Jones, 980
F.3d 1098 (6th Cir. 2020); United States v. Gunn, 980 F.3d
1178 (7th Cir. 2020); United States v. Aruda, No. 20-10245
(9th Cir. April 8, 2021); United States v. Maumau, No. 204056 (10th Cir. April 1, 2021). Until now, we have expressly reserved judgment on this question. United
States v. Harris, 989 F.3d 908, 912 & n.2 (11th Cir. 2021).
Given the importance of this threshold question, we turn
to it first.
A. “Applicable Policy Statement” Under 18 U.S.C.
§ 3582(c)(1)(A)
We interpret a statute based on the ordinary meaning
of its text when it was enacted. Wis. Cent. Ltd. v. United
States, 138 S. Ct. 2067, 2074 (2018) (“[I]t’s a ‘fundamental
canon of statutory construction’ that words generally
should be ‘interpreted as taking their ordinary, contemporary, common meaning . . . at the time Congress enacted the statute.’”). In other words, “for hard cases as
well as easy ones, the commonsense reading of the relevant statutory text is the anchor for statutory interpretation.” Bostock v. Clayton Cnty., 140 S. Ct. 1731, 1825
(2020) (Kavanaugh, J., dissenting) (cleaned up) (quoting

13a
W. Eskridge, Interpreting Law 33, 34–35 (2016)). As guidance for a word’s ordinary meaning, we look to many
sources—dictionaries, context, cannons of interpretation,
and others. See PETA v. Miami Seaquarium, 879 F.3d
1142, 1146–47 (11th Cir. 2018); FCC v. AT&T Inc., 562
U.S. 397, 404–09 (2011). Here, those sources universally
establish that the commonsense reading of “applicable
policy statements” includes U.S.S.G § 1B1.13, no matter
who files the motion.
1. The dictionary definition of “applicable”
We will start with the dictionary. AT&T, 562 U.S. at
404 (discussing use of dictionaries in determining meaning). “Applicable” has two main dictionary definitions.
One definition is “capable of being applied.” Applicable,
Black’s Law Dictionary (11th ed. 2019); Webster’s Third
New International Dictionary 105 (1986). The other definition is “relating to” or “relevant.” Jones, 980 F.3d at
1109 (defining “applicable” as “‘relevant’ or ‘appropriate’”
(quoting United States v. Ruffin, 978 F.3d 1000, 1007 (6th
Cir. 2020))); applicable, Black’s Law Dictionary (11th ed.
2019) (“2. (Of a rule, regulation, law, etc.) affecting or relating to a particular person, group, or situation; having
direct relevance”); Webster’s Third New International
Dictionary 105 (1986).
As to the first definition: the substantive standards in
1B1.13 are clearly capable of being applied to defendantfiled reduction motions. Indeed, since the FSA was enacted, district courts have consistently applied the Commission’s definition of “extraordinary and compelling reasons” to Section 3582(c)(1)(A) motions, regardless of who
filed them. And of the circuit courts that have addressed
Section 3582(c)(1)(A) motions, all but one have applied
1B1.13’s standards to defendant-filed reduction motions

14a
in individual cases. 1 In fact, even though several of our sister circuits have held that 1B1.13 is not an applicable policy statement, some of those same courts have continued
to apply its substantive standards in particular cases. See
United States v. Adamson, 831 F. App’x 82, 83 (4th Cir.
2020); United States v. Carter, 830 F. App’x 783, 784–85
(7th Cir. 2020); cf. United States v. Hood, No. 20-6243, slip
op. at 2–6 (6th Cir. April 15, 2021). Because courts have
consistently applied the substantive standards in 1B1.13
to defendant-filed motions, it is impossible to say that
1B1.13 cannot be applied.
The second definition of “applicable” produces similar
results: 1B1.13 is a relevant or related policy statement
for defendant-filed Section 3582(c)(1)(A) motions. Several
circuits have explicitly called 1B1.13 the “relevant policy
statement” for defendant-filed Section 3582(c)(1)(A) motions. 2 And other circuits have also treated it as relevant
1

See, e.g., United States v. Doe, 833 F. App’x 366, 367 & n.2 (3d
Cir. 2020); United States v. Taylor, 820 F. App’x 229, 230 (4th Cir.
2020) (applying 1B1.13 criteria and explaining that “[t]he Sentencing
Commission’s policy statements . . . control the disposition of Taylor’s
motion”); United States v. Thompson, 984 F.3d 431, 433–34 (5th Cir.
2021); United States v. Kincaid, 802 F. App’x 187, 188 (6th Cir. 2020);
United States v. Cochran, 833 F. App’x 5, 8–9 (7th Cir. 2020); United
States v. Vangh, 990 F.3d 1138, 1141 & n.3 (8th Cir. 2021); United
States v. Carpenter, 816 F. App’x 159, 159–160 (9th Cir. 2020); United
States v. Pinson, 835 F. App’x 390, 394–95 (10th Cir. 2020); United
States v. Wedgeworth, 837 F. App’x 738, 739–40 (11th Cir. 2020).
2 See, e.g., United States v. Ruffin, 978 F.3d 1000, 1001, 1003,
1004–05 (6th Cir. 2020); United States v. Loggins, 966 F.3d 891, 892
(8th Cir. 2020); cf. Gunn, 980 F.3d at 1180 (“The most recent Guidelines Manual has a policy statement, U.S.S.G. § 1B1.13, implementing
[Section 3582(c)(1)(A)].”); Aruda, No. 20-10245, slip op. at *8 (“The
Sentencing Commission’s policy statement regarding ‘Reduction in
Term of Imprisonment Under 18 U.S.C. § 3582(c)(1)(A)’ is found at
U.S.S.G. § 1B1.13.”).

15a
to defendant-filed Section 3582(c)(1)(A) motions. 3 In fact,
in opinions asserting that 1B1.13 is not an applicable policy statement, five of our sister circuits have also found
that 1B1.13 is “relevant” to or “helpful” for defendantfiled Section 3582(c)(1)(A) motions. 4 Of course, that does
not make sense: if the policy statement is relevant to the
motion and helpful for adjudicating the motion, then it
must be an “applicable” statement under the statute.
As these authorities recognize, nothing about 1B1.13
make it less “capable of application,” “relevant,” or “helpful” to defendant-filed motions than to BOP-filed motions.
The policy statement itself is mostly a quotation of the

3

United States v. Lugo, 832 F. App’x 799, 800 (3d Cir. 2021);
United States v. Thompson, 984 F.3d 431, 433 (5th Cir. 2021); United
States v. Pinson, 835 F. App’x 390, 394–95 & n.5 (10th Cir. 2020) (“We
recognize that some courts have concluded that passage of the First
Step Act has reduced—or even eliminated—the relevance of the Sentencing Commission’s policy statement. . . . [But] we have continued
to refer to it in deciding challenges related to § 3582(c)(1).”).
4 See United States v. McCoy, 981 F.3d 271, 282 n.7 (4th Cir. 2020)
(“That does not leave Guideline § 1B1.13 without practical import. . . . . [I]t remains helpful guidance even when motions are filed
by defendants.”); United States v. Tomes, 990 F.3d 500, 503 n.1 (6th
Cir. 2021) (“That is not to say a district court cannot permissively consider those four categories as part of its discretionary inquiry into
whether a case presents extraordinary and compelling reasons for release. . . . [B]ecause district courts are free to define ‘extraordinary
and compelling’ on their own initiative, they may look to § 1B1.13 as
relevant, even if no longer binding.” (internal quotation marks and
citations omitted); Gunn, 980 F.3d at 1180 (“The substantive aspects
of the Sentencing Commission’s analysis in § 1B1.13 and its Application Notes provide a working definition of ‘extraordinary and compelling reasons’; a judge who strikes off on a different path risks an appellate holding that judicial discretion has been abused.”); Aruda, No.
20-10245, slip op. at *11; United States v. McGee, No. 20-5047, slip op.
at *24 (10th Cir. March 29, 2021).

16a
statute and adds only one additional requirement: the defendant must not be dangerous. U.S.S.G. § 1B1.13(2). The
commentary identifies four categories of extraordinary
and compelling reasons, one of which the defendant must
fit to be eligible for relief. U.S.S.G. § 1B1.13 cmt. n.1. It
does not matter that these categories are found in the
commentary instead of the text because a policy statement and its commentary are “legal equivalent[s]” that
should be treated the same. Stinson v. United States, 508
U.S. 36, 43 (1993); United States v. Irey, 612 F.3d 1160,
1219 n.38 (11th Cir. 2010) (en banc). So to apply 1B1.13, a
court simply considers a defendant’s specific circumstances, decides if he is dangerous, and determines if his
circumstances meet any of the four reasons that could
make him eligible for a reduction. If he is dangerous or if
his circumstances do not match any of the four categories,
then he is ineligible for a reduction. If he is not dangerous
and his circumstances fit into an approved category, then
he is eligible, and the court moves on to consider the Section 3553(a) factors in evaluating whether a reduction
should be granted.
The process is the same for defendant-filed motions
and BOP-filed motions. As an example, the Eighth Circuit
recently affirmed a district court’s application of 1B1.13
to a defendant-filed motion. United States v. Vangh, 990
F.3d 1138, 1141 (8th Cir. 2021). To apply 1B1.13, the district court considered the defendant’s medical conditions
and, relying on the text of the “medical condition” category in Application Note 1(A), found that his medical condition did not fall into that category because he had not
shown that it “substantially diminished his ability to provide self-care.” Id. Accordingly, it denied relief. Id. And
the Eighth Circuit, assuming that 1B1.13 applied, affirmed. Id. at 1141 & n.3. It’s as simple as that.

17a
2. Context
The context further supports our conclusion that
1B1.13 is applicable. That context is vital to understanding what Congress meant by “applicable policy statements issued by the Sentencing Commission,” because
although a statutory phrase, “considered in isolation, may
be open to competing interpretations,” when it is considered “in conjunction with the purpose and context,” often
“only one interpretation is permissible.” Kasten v. SaintGobain Performance Plastics Corp., 563 U.S. 1, 7–8
(2011). So we look now to the “structure of the law itself,”
Food Mktg. Inst. v. Argus Leader Media, 139 S. Ct. 2356,
2364 (2019), including “how the Guidelines interact with
federal statutes.” See Dorsey v. United States, 567 U.S.
260, 264–65 (2012); cf. United States v. LaBonte, 520 U.S.
751, 763 (1997) (Breyer, J., dissenting) (“To understand
the legal issue before us, one must keep in mind both what
the Guidelines are and how they work.”).
There are two important contextual factors here: the
Commission’s statutory role in defining “extraordinary
and compelling reasons” and the way courts use the
Guidelines every day.
First, to curtail judicial discretion, the statute specifically directs the Commission to adopt a policy statement
that defines “extraordinary and compelling reasons.” As
we have previously explained, “[t]he Act not only gives the
Commission authority to issue policy statements governing sentence reductions, it actually requires the Commission to issue them.” United States v. Colon, 707 F.3d 1255,
1259 (11th Cir. 2013). The reason Congress requires them
is that it “made [the policy statement] binding on courts
by providing that a sentence may be reduced … only
where doing so is consistent with the Commission’s policy
statements.” Id. at 1262. Importantly, this is not a task

18a
that the statute allocates to courts. Although the statute
charges courts with making the discretionary call about
whether a sentence should ultimately be reduced, the
Commission is tasked with defining the universe of “extraordinary and compelling circumstances” that can justify a reduction.
There is no question that 1B1.13 is the policy statement
the Commission adopted to comply with this statutory
mandate. See, e.g., Gunn, 980 F.3d at 1180 (“The most recent Guidelines Manual has a policy statement, U.S.S.G.
§ 1B1.13, implementing [Section 3582(c)(1)(A)].”); Maumau, No. 20-4056, slip op. at *25 (“The Commentary to
[Section] 1B1.13 [was] in obvious response to Congress’s
mandate to the Sentencing Commission in [Section] 994(t)
to ‘describe what should be considered extraordinary and
compelling reasons for a sentence reduction’ … .”). The
policy statement is explicit that it “implements 28 U.S.C.
§ 994(a)(2) and (t),” which require the Commission “to develop general policy statements regarding … the appropriate use of the sentence modification provisions set
forth in 18 U.S.C. § 3582(c).” The title of 1B1.13—“Reduction in Term of Imprisonment Under 18 U.S.C.
§ 3582(c)(1)(A) (Policy Statement)”—also makes that
clear. See Aruda, No. 20-10245, slip op. at *8 (“The Sentencing Commission’s policy statement regarding “Reduction in Term of Imprisonment Under 18 U.S.C.
§ 3582(c)(1)(A)” is found at U.S.S.G. § 1B1.13.”). As does
the Sentencing Guidelines’ index entry for “reduction in
term of imprisonment,” which lists “under 18 U.S.C.
§ 3582(c)(1)(A)[:] 1B1.13.” In other words, the statutory
context shows us that the Commission had an obligation
to define “extraordinary and compelling reasons” for all
motions under the statute, and that the Commission did
so in 1B1.13.

19a
Second, 1B1.13 is “applicable” in the same way anything else in the sentencing guidelines is “applicable”—it
implements the relevant statute. At each sentencing, a
sentencing court must first determine the “applicable
guideline.” U.S.S.G. § 1B1.2. To do so, a court notes the
statute of conviction and then turns to Appendix A to see
which guideline corresponds with that statute. United
States v. Baldwin, 774 F.3d 711, 732 (11th Cir. 2014). A
sentencing court must ask only what guideline the Commission has tied to the relevant statute; it is prohibited
from looking at the “circumstances of a particular case” to
determine the “applicable guideline.” United States v.
Irey, 612 F.3d 1160, 1242 (11th Cir. 2010) (en banc). After
a court determines the applicable guideline, it uses that
guideline to determine the “applicable guideline range.”
U.S.S.G. § 1B1.2(b). The “applicable guideline” and the
“applicable guideline range” are still “applicable” even if
they do not ultimately control the defendant’s case. See
U.S.S.G. § 5G1.1; Koons v. United States, 138 S. Ct. 1783,
1790 (2018); Neal v. United States, 516 U.S. 284, 293–96
(1996). In other words, determining whether something is
an “applicable guideline” under the Sentencing Guidelines is resolved based on the statutory provision at issue
and nothing else.
So, consistent with the structure of the Guidelines as a
whole and with the Commission’s choices about how to
structure its policy statements, an applicable policy statement for a sentence reduction is the one that corresponds
with the reduction motion’s authorizing statute. For this
reason, this Court has described the applicable policy
statement when evaluating a sentence reduction as “[t]he
Commission’s policy statement on” the relevant statute.
United States v. Glover, 686 F.3d 1203, 1206 (11th Cir.

20a
2012), abrogated on other grounds by Amendment 780. 5
An “applicable policy statement” has also been characterized as a policy statement “related” to, Dillon, 560 U.S. at
834 (Stevens, J., dissenting), “concerning,” United States
v. Melton, 861 F.3d 1320, 1326 (11th Cir. 2017), “corresponding” with, United States v. Hamilton, 715 F.3d 328,
337 (11th Cir. 2013), or “governing,” Freeman v. United
States, 564 U.S. 522, 530 (2011) (plurality opinion); Dillon,
560 U.S. at 819; United States v. Colon, 707 F.3d 1255,
1258 (11th Cir. 2013), the relevant statutory provision.
And in all of the Supreme Court’s and this Court’s applicable-policy-statement determinations, the statutory provision authorizing the reduction motion has always been
the only consideration. Cf. McCoy, 981 F.3d at 282 (“The
only policy statement that possibly could be ‘applicable’ to
the defendants’ motions is … Guideline § 1B1.13.”). In
other words, a court should find the “applicable” policy
statement by looking at the statute it implements. For
Section 3582(c)(1)(A) motions the applicable policy statement is 1B1.13; for Section 3582(c)(2) motions, it is 1B1.10.
That is the way the Guidelines operate.

5 These precedents interpret “applicable policy statement” in the
parallel provision, Section 3582(c)(2). But that is of no moment because this Court has already concluded that precedents about Section
3582(c)(2) are instructive when interpreting Section 3582(c)(1)(A),
Harris, 989 F.3d at 911, as have our sister circuits, United States v.
Pawlowski, 967 F.3d 327, 330 (3d Cir. 2020); United States v. Kibble,
No. 20-7009, slip op. at *4–5 (4th Cir. April 1, 2021); United States v.
Chambliss, 948 F.3d 691, 693 (5th Cir. 2020); Jones, 980 F.3d at 1106–
07 & nn.10, 11; United States v. Rodd, 966 F.3d 740, 747–48 (8th Cir.
2020). That makes sense because “Section 3582(c)(2)’s language mirrors [Section] 3582(c)(1)’s in relevant respects.” Kibble, No. 20-7009,
slip op. at *2. Additionally, the exact same phrase—“applicable policy
statement”—is used in both of these parallel provisions.

21a
3. Statutory purpose
The statute’s purpose also supports our reading. As between two competing interpretations, we must favor the
“textually permissible interpretation that furthers rather
than obstructs” the statute’s purposes. Antonin Scalia &
Bryan A. Garner, Reading Law: The Interpretation of Legal Texts § 4, at 63 (2012)). Interpreting 1B1.13 as an applicable policy statement for all Section 3582(c)(1)(A) motions is not only a textually permissible interpretation, it
is the better one. It both furthers the SRA’s purposes and
effectuates other congressional sentencing decisions,
such as mandatory minimums and retroactivity.
The SRA’s purpose was to limit discretion and to bring
certainty and uniformity to sentencing. See, e.g., United
States v. Booker, 543 U.S. 220, 264 (2005); see also United
States v. Irey, 612 F.3d 1160, 1181 (11th Cir. 2010) (en
banc) (“[L]imiting discretion according to legal standards
helps promote the basic principle of justice that like cases
should be decided alike.” (quoting Martin v. Franklin
Capital Corp., 546 U.S. 132, 139 (2005))). To achieve that
aim, Congress created the Sentencing Commission and
delegated to it the authority to create the Sentencing
Guidelines. United States v. Harris, 876 F.2d 1502, 1505
(11th Cir. 1989) (“Congress’[s] aim in creating the Sentencing Commission was to reduce the sentencing disparities and ‘establish sentencing policies and practices for
the Federal criminal justice system that . . . provide certainty and fairness in meeting the purposes of sentencing.’”). The Guidelines, in turn, “provide uniformity, predictability, and a degree of detachment lacking in our earlier system.” Koon v. United States, 518 U.S. 81, 113
(1996). Congress also gave the Commission a “substantial
role” in sentence-modification proceedings by directing it

22a
to define the circumstances that justify a reduced sentence. See Dillon, 560 U.S. at 826.
Interpreting 1B1.13 as inapplicable to defendant-filed
Section 3582(c)(1)(A) motions would return us to the preSRA world of disparity and uncertainty. Except worse.
Unlike a parole board—which could not reduce an imposed sentence until a defendant had served at least a
third of that sentence, see, e.g., United States v. Berry, 839
F.2d 1487, 1488 & n.1 (11th Cir. 1988)—sentencing courts
need wait only 30 days after imposing a sentence before
granting a Section 3582(c)(1)(A) reduction, see 18 U.S.C.
§ 3582(c)(1)(A). More concerning, sentencing courts are
not bound by even the statutory minimums when granting
Section 3582(c)(1)(A) motions.
Bryant’s motion here proves our point. His main argument is that his sentence is now unjust because of a recent, non-retroactive sentencing change. In essence, he
argues that a congressional decision to make a sentencing
change prospective-only creates an extraordinary and
compelling reason that allows district courts to apply that
change retroactively. The Fourth Circuit accepts that argument, McCoy, 981 F.3d at 285–87; the Sixth Circuit
does not, United States v. Tomes, 990 F.3d 500, 504–05
(6th Cir. 2021); the Tenth Circuit attempts a middle way,
McGee, No. 20-5047, slip op. at *19–24. Some district
courts might grant relief on that basis; surely, others
would not. Disparity and uncertainty follow from adopting
an interpretation of “applicable” that rejects 1B1.13 as an
applicable policy statement.
Of course, “purpose … cannot be used to contradict the
text or to supplement it.” Bellitto v. Snipes, 935 F.3d 1192,
1201 (11th Cir. 2019) (quoting Scalia & Garner, Reading
Law §2, at 57). We must not “engage in purpose-driven
statutory interpretation,” Arcia v. Fla. Sec’y of State, 772

23a
F.3d 1335, 1347 (11th Cir. 2014) (internal quotation marks
and citation omitted), or “the familiar tactic of substituting the purpose of the statute for its text, freeing the
Court to write a different [guideline] that achieves the
same purpose,” Rapanos v. United States, 547 U.S. 715,
755 (2006). But a statute’s purpose, which itself must be
derived from the text, is a constituent of meaning and can
be helpful in understanding the “ordinary, contemporary,
common meaning” of the statute’s language. United
States v. Haun, 494 F.3d 1006, 1009 (11th Cir. 2007) (quoting Perrin v. United States, 444 U.S. 37, 42 (1979)). If the
text could be read more than one way when considered in
a vacuum, a statute’s purpose may reveal which reading is
correct. And a textually permissible interpretation that
does not frustrate a statute’s purpose is preferred over
one that does. Here, the statute’s purpose supports our
reading, even though it could not alone justify it.
4. Other considerations
Last, other general canons of statutory interpretation
also bolster the understanding of 1B1.13 as an applicable
policy statement for all Section 3582(c)(1)(A) motions, regardless of who files them. We discuss three here.
First and most obviously, 1B1.13’s title is “Reduction
in Term of Imprisonment Under 18 U.S.C. § 3582(c)(1)(A)
(Policy Statement).” Titles are “permissible indicators of
meaning.” United States v. Henry, 968 F.3d 1276, 1283
(11th Cir. 2020) (quoting Scalia & Garner, Reading Law
§ 35, at 221); see also Almendarez-Torres v. United
States, 523 U.S. 224, 234 (1998). And 1B1.13’s title indicates that it is the policy statement for all Section
3582(c)(1)(A) motions.

24a
Second, we presume that the same words will be interpreted the same way in the same statute. Even if a particular case makes “a bifurcated construction of [a] word
[tempting], in the long run, experience teaches that strict
adherence to the … requirements specified by the legislature is the best guarantee of evenhanded administration
of the law.” Mohasco Corp. v. Silver, 447 U.S. 807, 826
(1980). Resisting the temptation to interpret the same
word differently makes sense because we presume that
Congress’s “inclusion … of [that] language is intentional
and purposeful.” United States v. Perez, 366 F.3d 1178,
1182 (11th Cir. 2004). And “[w]e have even stronger cause
to construe a single” use of a phrase “the same way each
time it is called into play.” Ratzlaf v. United States, 510
U.S. 135, 143 (1994). We must “refuse to adopt a construction that would attribute different meanings to the same
phrase in the same sentence, depending on which object it
is modifying.” Reno v. Bossier Parish Sch. Bd., 528 U.S.
320, 329 (2000).
Applying these principles, we should not interpret “applicable policy statement” in a way that gives “extraordinary and compelling”—which is only used in the statute
once—different meanings depending on who files a motion. Cf. Shkambi, No. 20-40543, slip op. at *8–9 (“It’s true
that application note 1 defines ‘extraordinary and compelling reasons’ by articulating four categories of reasons
that could warrant a sentence reduction.”). “In all but the
most unusual situations, a single use of a statutory phrase
must have a fixed meaning.” Cochise Consultancy, Inc. v.
United States ex rel. Hunt, 139 S. Ct. 1507, 1512 (2019).
And this case does not present one of those “most unusual
situations.” On the contrary, nothing in the statute, policy
statement, or common sense suggests that “what should
be considered extraordinary and compelling reasons for

25a
[a] sentence reduction,” 28 U.S.C. § 994(t), might vary depending on whether a defendant files a reduction motion
for himself or whether the BOP files a motion on his behalf.
Third, when interpreting statutes, what Congress
chose not to change can be as important as what it chose
to change. We recognize that a statute’s text often “reflect[s] hard-fought compromises.” Bd. of Governors of
Fed. Rsrv. Sys. v. Dimension Fin. Corp., 474 U.S. 361, 374
(1986). Here, in the FSA, Congress chose to expand who
can file a Section 3582(c)(1)(A) motion, but it chose not to
lift its stricture that courts must follow the Commission’s
applicable policy statements when ruling on those motions. It also chose not to amend its mandate that the
Commission publish policy statements defining “what
should be considered extraordinary and compelling reasons for [a] sentence reduction” under Section
3582(c)(1)(A). 28 U.S.C. § 994(t); see also 28 U.S.C.
§ 994(a)(2)(C). It even chose not to grant the Commission
emergency authority to amend 1B1.13. Compare Pub. L.
No. 115-391, 132 Stat. 5194 (2018) (granting no emergency
amendment authority), with Fair Sentencing Act of 2010,
Pub. L. No. 111-220, § 8, 124 Stat. 2372, 2374 (2010) (ordering the Commission to amend the Guidelines to
“achieve consistency” with the new law within 90 days and
granting the Commission “emergency authority” to do
so). We presume that congressional inaction is intentional,
Gross v. FBL Fin. Servs., Inc., 557 U.S. 167, 174 (2009),
and that Congress made a “determined choice,” United
States v. Jordan, 915 F.2d 622, 628 (11th Cir. 1990), that
the Commission, not courts, would continue to establish
what reasons were extraordinary and compelling for Section 3582(c)(1)(A) motions.

26a
Congress also made these limited amendments in the
knowledge that 1B1.13 was the “applicable” policy statement. See United States v. Phillips, 19 F.3d 1565, 1581
(1994) (“Congress is presumed to be knowledgeable about
existing case law pertinent to any legislation it enacts.”).
Before the FSA, the Commission had said that the policy
statement was its effort to comply with its statutory obligation to define the circumstances that could warrant a
sentence reduction under Section 3582(c)(1)(A). See
U.S.S.G. § 1B1.13 (U.S. Sent’g Comm’n 2018) (Title: “Reduction in Term of Imprisonment Under 18 U.S.C.
§ 3582(c)(1)(A)”). And, by the time of the FSA, this Court
had specifically described 1B1.13 as the “policy statement
explaining [when] ‘extraordinary and compelling reasons’
exist.” Orlansky v. FCI Mia. Warden, 754 F. App’x 862,
865 (11th Cir. 2018). Other courts had also described
1B1.13 as the Commission’s “policy statement on § 3582
(c)(1)(A) sentence reductions,” Totaro v. Warden Fort
Dix FCI, 742 F. App’x 596, 597 (3d Cir. 2018), and “the
policy statement that governs [Section 3582(c)(1)(A)] reductions [and] lists circumstances that qualify as extraordinary and compelling under § 3582(c)(1)(A).” United
States v. Berberena, 694 F.3d 514, 521–22 n.10 (3d Cir.
2012). Knowing all this, Congress chose not to redefine
that phrase, change the substantive standard for granting
a motion, or modify a district court’s obligation to follow
the policy statement. If Congress had meant to free district courts from following the Commission’s guidance for
defendant-filed motions, “we would expect the text … to
say so.” Puerto Rico v. Franklin Cal. Tax-Free Trust, 136
S. Ct. 1938, 1947 (2016).

27a
5. Our Sister Circuits’ Errors
Despite the ordinary meaning of the word “applicable,”
the normal way in which courts identify applicable sentencing guidelines, and the drumbeat of authority that
1B1.13 controls all motions under Section 3582(c)(1)(A),
many of our sister circuits have held to the contrary. They
have done so, we believe, because of two errors.
First, our sister circuits have misinterpreted the prefatory phrase of 1B1.13, which begins with “[u]pon motion
of the Director of the Bureau of Prisons,” and the repetition of that clause in Application Note 4. Brooker, 976 F.3d
at 235–36; McCoy, 981 F.3d at 282; Shkambi, No. 2040543, slip op. at *8–9; Jones, 980 F.3d at 1109– 10; Gunn,
980 F.3d at 1180; Aruda, No. 20-10245, slip op. at *11.
“[O]ur interpretation of the Sentencing Guidelines is governed by traditional rules of statutory construction.”
United States v. Lange, 862 F.3d 1290, 1294 (11th Cir.
2017). And, as a general matter, “a prefatory clause does
not limit or expand the scope of the operative clause.” District of Columbia v. Heller, 554 U.S. 570, 578 (2008). Instead, “operative provisions should be given effect as operative provisions, and prologues as prologues.” Id. at 579
n.3.
Here, these provisions are prologue. The prefatory
part of the policy statement orients the reader by paraphrasing the statute as it existed at the time the policy
statement was enacted. But the important operative provisions of the policy statement are found in the application
notes. See Stinson v. United States, 508 U.S. 36, 43 (1993)
(commentary and a policy statement are “legal equivalent[s]”). Those notes define “extraordinary and compelling reasons” as being medical, age, family, or “other reasons.” And they operate independently of the prefatory

28a
clause that has caused so much confusion in our sister circuits.
Similarly, the repetition of this phrase in Application
Note 4 performs a prefatory, not operative function. Indeed, none of Application Note 4 has an operative effect;
it is merely the Commission’s suggestion to the BOP to
file more motions. U.S.S.G. App. C, Amend. 799 at 136-37
(Reason for Amendment) (effective Nov. 1, 2016). That
note “encourages the Director of the Bureau of Prisons to
file” a motion “if the defendant meets any of the circumstances set forth in Application Note 1.” U.S.S.G. § 1B1.13
cmt. n.4. As the Commission has said, this “commentary
[was] intended to encourage the [BOP Director] … to file
a motion under section 3582(c)(1)(A) when the criteria in
this policy statement are met” U.S.S.G. App. C, Amend.
799 at 136-37 (Reason for Amendment) (effective Nov. 1,
2016). When the application note was published, the Commission reasoned that “[w]hile only the Director of the
Bureau of Prisons has the statutory authority to file a motion for compassionate release, . . . ‘the court is in a unique
position to assess whether . . . the criteria set forth in this
policy statement’” have been met. Id. To that end, Application Note 4 begins with the then-existing statutory limitations: “[a] reduction under this policy statement may be
granted only upon motion by the Director of the Bureau
of Prisons pursuant to 18 U.S.C. § 3582(c)(1)(A).” Read in
context, that language explains why it was (and still is) important for the BOP to file more motions; it does not limit
the operative provisions of the policy statement to motions filed by the BOP.
It is telling that our sister circuits can give these
clauses an operative meaning only by retconning them. It
is “a fundamental canon of statutory construction that

29a
words generally should be interpreted as taking their ordinary meaning at the time” of enactment. Oliveira, 139
S. Ct. at 539 (cleaned up). But our sister circuits expressly
interpret 1B1.13’s language anachronistically instead of
consistently with its ordinary meaning when the Commission published it. See, e.g., Brooker, 976 F.3d at 236;
Shkambi, No. 20-40543, slip op. at *8. When the Commission published 1B1.13, there was no such thing as a defendant-filed motion under Section 3582(c)(1)(A). As a
procedural matter, only the BOP could file that reduction
motion. It therefore makes very little sense to say that the
policy statement distinguishes between a BOP-filed motion and some other kind of motion that did not exist when
the policy statement was adopted. Cf. Maumau, No. 204056, slip op. at 26 n.5 (conceding that when the policy
statement said that “[a] reduction under this policy statement may be granted only upon motion by the Director of
the Bureau of Prisons pursuant to 18 U.S.C.
§ 3582(c)(1)(A),” it was “address[ing] the procedural aspects of the compassionate release statute as they existed
prior to the First Step Act”).
Second, our sister circuits make several purposivist
points. They note that the Commission lacks a quorum
and expect it to change the policy statement when it can.
Brooker, 976 F.3d at 234; McCoy, 981 F.3d at 282–84 &
n.6; Jones, 980 F.3d at 1111 n.20; Gunn, 980 F.3d at 1180–
81; Aruda, No. 20-10245, slip op. at *8 & n.1; Maumau,
No. 20-4056, slip op. at *26 (premising its refusal to recognize 1B1.13 as an applicable policy statement on “the Sentencing Commission’s [failure] to fulfil its statutory duty
to issue a post-First Step Act policy statement”). They
also note that Congress amended the statute to expand
the use of Section 3582(c)(1)(A) and lament that the unamended 1B1.13 does not allow enough expansion.
Brooker, 976 F.3d at 233, 235; McCoy, 981 F.3d at 276;

30a
Jones, 980 F.3d at 1104–05, 1110; Aruda, No. 20-10245,
slip op. at *11; Maumau, No. 20-4056, slip op. at *15–16.
We recognize the intuitive pull of these concerns. But it is
not our role to predict what the Sentencing Commission
will do or what Congress wants it to do. Our role is to interpret the relevant legal texts and apply them as they exist. See Wis. Cent. Ltd. v. United States, 138 S. Ct. 2067,
2074 (2018) (“[I]t’s a judge’s job only to apply, not revise
or update, the terms.”).
There is always a lag time between a statutory change
and guideline amendments. Amendments cannot take effect until six months after they are submitted to Congress. Dorsey v. United States, 567 U.S. 260, 293 n.2
(2012) (Scalia, J., dissenting) (quoting 28 U.S.C. § 994(p)).
And they can only be submitted between “the beginning
of a regular session of Congress” and the first day of May.
Id. But, as a general rule, we do not throw out an entire
guideline after a statutory change—we continue to apply
it except to the extent that specific parts have been
preempted by the new statute. See United States v. Moriarty, 429 F.3d 1012, 1024 & nn.10, 11 (11th Cir. 2005); cf.
United States v. LaBonte, 520 U.S. 751, 753, 755–57 (1997)
(requiring only that the inconsistent commentary be read
consistently with the statute, not that the entire careeroffender guideline have no effect until revised).
We are also not convinced that our interpretation frustrates Congress’s goal of broadening the reach of Section
3582(c)(1)(A). In enacting the FSA, congressional critics
of the existing law did not argue that 1B1.13’s criteria
were too narrow or that courts should be able to identify
“extraordinary and compelling reasons” for themselves.
Instead, the critics’ concern was that the “BOP [was] not
fulfilling its role” because it was not filing Section

31a
3582(c)(1)(A) motions “based on the recently revised guidance issued by the U.S. Sentencing Commission.” Letter
from 12 U.S. Senators to Deputy Attorney General J. Rod
Rosenstein and Acting Bureau of Prisons Director Dr.
Thomas R. Kane (Aug. 3, 2017). By allowing defendants
to file reduction motions, Congress has significantly increased the statute’s use. Pub. L. No. 115-391, § 603(b),
132 Stat. 5194, 5239 (2018) (titling the Section
3582(c)(1)(A) amendments “INCREASING THE USE
AND TRANSPARENCY OF COMPASSIONATE RELEASE”). According to a recent Sentencing Commission
report, the number of Section 3582(c)(1)(A) motions
granted consistent with the 1B1.13 criteria increased fivefold in the year following the FSA’s enactment. U.S.
Sent’g Comm’n, The First Step Act of 2018: One Year of
Implementation 47–49 (August 2020). And defendants
filed two-thirds of those motions. Id. at 47.
6. Our Dissenting Colleague’s Arguments
Our dissenting colleague sees things differently for
reasons that we find unconvincing. We have addressed
most of these points already. But there are three that warrant emphasis.
First, although our dissenting colleague quibbles with
our definition of “applicable,” she offers no alternative
definition of her own. Instead, our dissenting colleague
says that the policy statement tells us when it is applicable. The circularity of that position notwithstanding, we
do not read the policy statement the same way. As explained above, we do not understand the policy statement
to have limited its 37 own applicability or, more specifically, to have limited the applicability of its operative provisions, which define the universe of extraordinary and
compelling reasons that can justify a sentence reduction.

32a
To the extent the policy statement addresses its application, it says that sentencing reductions under Section
3582(c)(1)(A) must be “consistent with this policy statement.” U.S.S.G. § 1B1.13(3) (emphasis added). And, of
course, the policy statement does not define “applicable”
in the context of Section 3582(c)(1)(A), which would not be
something the Commission would have authority to do anyway.
Second, as already addressed above, our dissenting colleague’s reading of the policy statement ignores the mandate that we must interpret the statement based on the
ordinary meaning of its text when it was enacted. Wis.
Cent. Ltd., 138 S. Ct. at 2074. Specifically, our dissenting
colleague argues that the prefatory phrases can no longer
be interpreted as prefatory phrases because they could,
now, be interpreted as operative in light of the FSA’s
changes. But if they were prefatory when 1B1.13 was published, they are still prefatory today. It is “a fundamental
canon of statutory construction” that we must derive the
meaning of the guideline from the time that it was
adopted, not from an anachronistic interpretation of the
text. See New Prime Inc. v. Oliveira, 139 S. Ct. 532, 539
(2019). There is nothing purposivist about understanding
the policy statement based on what it meant when the
Commission adopted it.
Third, our dissenting colleague argues that we are
“blue-pencil[ing]” the policy statement by holding that it
is “applicable” to defendant-filed motions. We disagree.
We not severing anything from, or adding anything to, the
policy statement. Instead, we are recognizing that district
courts are bound by the Commission’s definition of “extraordinary and compelling reasons” found in 1B1.13 because, under our understanding of the statute, Congress

33a
said they are. That means that courts may grant defendant-filed motions that the BOP refuses to bring, but they
must apply 1B1.13’s definition of “extraordinary and compelling reasons” in doing so.
***
In short, we hold that 1B1.13 is an applicable policy
statement that governs all motions under Section
3582(c)(1)(A). Accordingly, district courts may not reduce
a sentence under Section 3582(c)(1)(A) unless a reduction
would be consistent with 1B1.13.
B. Section 1B1.13, Application Note 1(D)
Because we conclude that 1B1.13 is an applicable, binding policy statement for all Section 3582(c)(1)(A) motions,
we must reach the second question: How does the policy
statement apply to Bryant’s request for a sentence reduction? There is no dispute that Bryant does not fit within
the circumstances established by Application Notes 1(A),
(B), or (C), which concern medical, age, and family circumstances. Because he argues that he fits within Application
Note 1(D), that is where we turn.
Application Note 1(D) states, “Other Reasons.—As determined by the Director of the [BOP], there exists in the
defendant’s case an extraordinary and compelling reason
other than, or in combination with, the reasons described
in subdivisions (A) through (C).” Bryant’s main argument
is that the FSA preempts this application note because it
conditions the “other reasons” that can be extraordinary
and compelling on a BOP determination. That conflict, according to Bryant, should be resolved by striking the first
clause of the sentence, allowing district courts to define
the “other reasons” mentioned in Application Note 1(D).
Accordingly, he argues that we should remand for the district court to consider whether his reasons—primarily,

34a
the purported unfairness of his sentence—are extraordinary and compelling.
Policy statements and commentary in the Guidelines
are not binding on federal courts if they “violate[] … a federal statute.” Stinson v. United States, 508 U.S. 36, 38, 45
(1993). If a policy statement “is at odds” with a federal
statute, it must “bow to the specific directives of Congress,” and the conflicting portion “must give way” to the
statutory directive. United States v. LaBonte, 520 U.S.
751, 757 (1997). When Congress amended Section
3582(c)(1)(A) to allow defendants to file those motions, it
rendered some of 1B1.13 inoperative. For instance, the
first sentence of Application Note 4 says “A reduction under this policy statement may be granted only upon motion by the Director of the Bureau of Prisons pursuant to
18 U.S.C. § 3582(c)(1)(A).” That provision and the
amended Section 3582(c)(1)(A) are mutually exclusive:
They cannot possibly coexist. When that happens, we
simply apply the statute, which trumps the policy statement.
The parties disagree about whether Application Note
1(D) “violates” or “is at odds” with Section 3582(c)(1)(A),
and if so, what portion “must give way.” LaBonte, 520 U.S.
at 757; Stinson, 508 U.S. at 38. Bryant argues that Application Note 1(D) conflicts with the amended statute because the purpose of the amendment was to expand the
use of Section 3582(c)(1)(A) by removing the BOP from its
gatekeeper role and by allowing federal courts to grant
relief even if the BOP disagreed. His solution is to strike
only the phrase “[a]s determined by the Director of the
[BOP],” ultimately granting courts the ability to determine “other reasons.”
The government agrees that the FSA removed the
BOP’s exclusive authority over filing Section 3582

35a
(c)(1)(A) motions. But there the agreement ends. The government responds that the FSA did not change the Commission’s definition of extraordinary and compelling nor
did it shift authority from the Commission to the courts to
define that phrase. In the government’s view, by changing
only who could file a reduction motion, the FSA simply
expanded defendants’ access to the courts. The government concludes that there is no inherent incompatibility
between a defendant-filed reduction motion and BOP input on what reasons not expressly listed in 1B1.13 can be
extraordinary and compelling.
We agree with the government. Application Note 1(D)
is not at odds with the amended Section 3582(c)(1)(A). We
cannot replace the phrase “[a]s determined by the Director of the [BOP]” with “as determined by a district court.”
Application Note 1(D) does not conflict with Section
3582(c)(1)(A). The FSA’s only change was to allow for defendant-filed reduction motions. Nothing in Application
Note 1(D) stops a defendant from filing a Section
3582(c)(1)(A) motion. The BOP may still file motions, and
Application Note 1(D) can apply to those motions. The
BOP can also take a position on a defendant-filed motion,
so Application Note 1(D) has a field of application there as
well. Cf. Gunn, 980 F.3d at 1180 (“It is true that a judge
acting on a prisoner’s motion may lack the advice of the
Director, contemplated by Application Note 1(D), about
whether some novel ‘extraordinary and compelling reason’ exists. Yet the First Step Act does not muzzle the Director … .”). Because this Court can give effect to the
amended Section 3582(c)(1)(A) and the unamended Application Note 1(D) at the same time, the Court must do so.
See McCarthan v. Dir. of Goodwill Industries-Suncoast,
Inc., 851 F.3d 1076, 1090 (11th Cir. 2017) (en banc)
(“[T]here can be no justification for needlessly rendering

36a
provisions in conflict if they can be interpreted harmoniously.” (alteration in original) (quoting Antonin Scalia &
Bryan A. Garner, Reading Law: An Interpretation of Legal Texts 180 (2012)); cf. Helvering v. Credit All. Co., 316
U.S. 107, 112 (1942) (“We should, of course, read the two
sections as consistent rather than conflicting, if that be
possible.”).
Additionally, Application Note 1(D) is consistent with
Congress’s purpose in passing the FSA. As in all cases of
statutory interpretation, “the purpose must be derived
from the text.” Scalia & Garner, Reading Law § 2, at 56;
see United States v. Tigua, 963 F.3d 1138, 1142 (11th Cir.
2020). As we have already explained, the FSA did not give
courts the freedom to define “extraordinary and compelling reasons.” It expanded access to the courts for adjudicating motions under existing criteria. In other words, the
policy problem that the FSA aimed to solve was not the
courts’ inability to identify new grounds for relief; rather,
the problem was that the BOP was not filing reduction
motions for defendants who qualified under the already
existing grounds for relief—the Commission’s criteria set
forth in 1B1.13. Allowing defendants to file Section 3582
(c)(1)(A) motions ensures that courts can grant reductions
to defendants who fall within the Commission’s criteria.
And, as previously demonstrated, that change has accomplished Congress’s goal of increased use.
It is true that Application Note 1(D) allows the BOP
some input in Section 3582(c)(1)(A) motions. But nothing
in the FSA suggests that Congress stripped the BOP of
any role in Section 3582(c)(1)(A) proceedings. Two considerations make that clear.
First, in adding a clause allowing defendants to file
Section 3582(c)(1)(A) motions, Congress also continued to
allow the BOP to file those motions. 18 U.S.C. § 3582

37a
(c)(1)(A). Indeed, Congress required that defendants first
submit their requests to the BOP and allow it the initial
opportunity to file the Section 3582(c)(1)(A) motion. Id.
Second, Section 603(b) of the FSA actually expands the
BOP’s role in Section 3582(c)(1)(A) proceedings. It requires the BOP to notify prisoners who may qualify for a
reduction under Section 3582(c)(1)(A) of its availability. 18
U.S.C. § 3582(d). It even requires the BOP to “assist the
defendant in the preparation, drafting, and submission of
a request for a sentence reduction pursuant to subsection
(c)(1)(A).” Id.
This Court can and should give effect to the amended
Section 3582(c)(1)(A) and the unamended Application
Note 1(D). 6 There is no inherent incompatibility between
6

Some, including our dissenting colleague, have argued that a
sub-delegation of the Commission’s power to define extraordinary
and compelling reasons to the BOP may be a problem as a matter of
administrative law. See also Ruffin, 978 F.3d at 1007–08. If this position were correct, it seems to us that the entire application note would
fall as an improper sub-delegation, which would not help Bryant here.
But we do not address this question because no party has sufficiently
raised that argument. Although Bryant’s brief mentioned that an
agency cannot delegate a power that it does not have, that comment
was in the context of his argument that the FSA altered the BOP’s
role such that courts should now define “other reasons.” That is not
enough to place the sub-delegation issue before this Court. Singh v.
U.S. Att’y Gen., 561 F.3d 1275, 1278 (11th Cir. 2018) (“[A]n appellant[]
simply stating that an issue exists, without further argument or discussion, constitutes abandonment of that issue and precludes our considering the issue on appeal.”). Because no party has “plainly and
prominently raised” the sub-delegation issue, “for instance by devoting a discrete section of his argument to that claim,” it has not been
adequately briefed. Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d
678, 681 (11th Cir. 2014) (cleaned up). We cannot evaluate the merits
of that administrative law issue in this appeal. Access Now, Inc. v. Sw.
Airlines Co., 385 F.3d 1324, 1330 (11th Cir. 2004) (“If an argument is
not fully briefed . . . to the Circuit Court, evaluating its merits would

38a
a defendant filing a Section 3582(c)(1)(A) motion and the
BOP determining which reasons outside of those explicitly delineated by the Commission are extraordinary and
compelling. Because Bryant’s motion does not fall within
any of the reasons that 1B1.13 identifies as “extraordinary
and compelling,” the district court correctly denied his
motion for a reduction of his sentence.
IV. CONCLUSION
For the foregoing reasons, the judgment of the district
court is AFFIRMED.

be improper.”); see also Sapuppo, 739 F.3d at 682 (“Abandonment of
an issue can also occur when passing references appear in the argument section of an opening brief, particularly when the references are
mere ‘background’ to the appellant’s main arguments or when they
are ‘buried’ within those arguments.”).

39a
MARTIN, Circuit Judge, dissenting:
Today’s majority opinion establishes the Eleventh Circuit as the only circuit to limit an inmate’s ability to get
compassionate release from incarceration solely to those
“extraordinary and compelling” reasons that are pre-approved by the Bureau of Prisons (“BOP”). Our precedent
now allows no independent or individualized consideration
by a federal judge as plainly intended by the First Step
Act. And this limitation on compassionate release is based
on an outdated policy statement from a Sentencing Commission that has lacked a quorum since the First Step Act
became law. 1 The problems that arise from the majority’s
reliance on the outdated policy statement are compounded by the majority’s express decision to strike (or
ignore) language from the policy statement. Sadly, this result reinstates the exact problem the First Step Act was
intended to remedy: compassionate release decisions had
been left under the control of a government agency that
showed no interest in properly administering it. With all
respect due, I dissent.
I. FACTUAL BACKGROUND
Thomas Bryant is currently serving a 49-year sentence
for offenses that netted him $21,600 over three years, with

1
The First Step Act was signed into law on December 21, 2018. The
last meeting of the U.S. Sentencing Commission to convene with a
quorum was held on December 13, 2018. This means the Commission
has not met with a quorum since the enactment of the First Step Act.
During the entire life of the First Step Act, the Commission has
therefore been without authority to make revisions to the U.S. Sentencing Guidelines, the commentary to those guidelines, or the policy
statements related to those guidelines to effectuate the First Step
Act.

40a
no identifiable victims associated. 2 Mr. Bryant, who still
has more than a quarter of a century to serve on this sentence, would be in his eighties by the time he is released.
Meanwhile, those of his co-defendants who pled guilty all
re-entered society by 2008. Also of note, Mr. Bryant’s
lengthy sentence is the result of the government’s decision to “stack” his firearm offenses. By this I mean, it
charged two 18 U.S.C. § 924(c)(1) offenses in the same indictment, which resulted in required consecutive sentences for those charges. Specifically, it is as a result of
this charging decision that Mr. Bryant was subject to
what was then a mandatory consecutive 20-year penalty.
Today, the law does not permit the type of “stacked” sentence Mr. Bryant received when there are two firearm
charges in the same criminal proceeding. See First Step
Act of 2018 (“First Step Act”), Pub. L. No. 115-391, § 403,
132 Stat. 5194, 5221–22 (codified at 18 U.S.C. § 924(c)).
Consecutively imposed sentences for firearm violations
are now only allowed for defendants who have a separate
conviction for firearm use, i.e., from an earlier event.
Despite the fact that Mr. Bryant may well die in prison
given the length of his sentence, he has devoted significant effort to rehabilitating himself during the 22 years he
already spent behind bars. He completed over 19 years of
education courses, worked in UNICOR Industries for 15
years, and teaches other prisoners music theory and cre-

The crimes for which Mr. Bryant was convicted are not at all relevant to the straightforward interpretive question before us. But I
understand the majority opinion to comment on Mr. Bryant’s moral
character. See Maj. Op. at 1, 4 (stating that Mr. Bryant is “corrupt,”
that he “flout[ed]” the law, and that his “duplicity begets duplicity”).
In the face of those statements, I provide details of Mr. Bryant’s offenses and penalties not found in the majority opinion.
2

41a
ative writing. A number of people support his release, including his family, his pastor, and several BOP staff members.
II. STATUTORY BACKGROUND
In 2018, Congress enacted the First Step Act which,
among other things, transformed the process of moving
for and adjudicating compassionate release motions. Before passage of the Act, it was only the BOP Director who
had authority to file a motion seeking reduction of a prisoner’s sentence, and only “extraordinary and compelling
reasons” could “warrant such a reduction.” 18 U.S.C.
§ 3582(c)(1)(A)(i) (2012). Upon passage of the Act, federal
district judges now have authority to reduce a sentence
that is no longer dependent on BOP’s decision to ask for
it. The Act now allows courts to consider motions filed by
defendants themselves, once that defendant has exhausted his administrative remedies or after “the lapse of
30 days from the receipt of such a request by the warden
of the defendant’s facility, whichever is earlier.” First
Step Act, Pub. L. No. 115-391, § 603, 132 Stat. 5194, 5239
(codified at 18 U.S.C. § 3582(c)(1)(A)).
Congress enacted this reform following two damning
Department of Justice Inspector General (“DOJ IG”) reports that documented BOP’s utter failure to administer
a meaningful compassionate release program. See U.S.
Dep’t of Justice Office of the Inspector Gen., The Federal
Bureau of Prisons’ Compassionate Release Program
(2013),
https://oig.justice.gov/reports/2013/e1306.pdf;
U.S. Dep’t of Justice Office of the Inspector Gen., The Impact of an Aging Inmate Population on the Federal Bureau of Prisons (2016), https://oig.justice.gov/reports/
2015/e1505.pdf. The DOJ IG found that BOP did not set
consistent criteria, did not inform prisoners about the program, and did not track requests. The Federal Bureau of

42a
Prisons’ Compassionate Release Program at i–iv. The
DOJ IG found that from the nation’s entire federal inmate
population, only 24 people per year were released on
BOP’s motion. Id. at 1. Of the people whose release requests were approved by both a warden and a BOP Regional Director, 13% died while waiting for final approval
from the BOP Director. Id. at 11. Moreover, the second
report spelled out that BOP failed to implement Congress’s command on compassionate release, even at significant financial cost to itself. The Impact of an Aging Inmate Population on the Federal Bureau of Prisons at iii.
The First Step Act took away BOP’s solitary control
over this gatekeeping function but left the Sentencing
Commission with the authority to describe what “extraordinary and compelling” reasons might warrant a sentence
reduction. See 28 U.S.C. § 994(t). The Commission has
been unable to update its commentary on what constitutes
“extraordinary and compelling” reasons since 2018 because, as I mentioned, it has lacked a quorum since that
time. The Commission currently has only one voting
member and it would need seven to act. 3

See U.S. Sentencing Comm’n, 2018 Annual Report 2–3 (2019)
(“[A]s of the second quarter of fiscal year 2019, Judge Breyer and
Judge Reeves are the only voting members of the Commission.”),
https://www.ussc.gov/sites/default/files/pdf/-research-and-publications/annual-reports-and-sourcebooks/-2018/2018-Annual-Reportand-Sourcebook.pdf; U.S. Sentencing Comm’n, 2019 Annual Report 3
(2020) (“Throughout much of fiscal year 2019 and into fiscal year 2020,
the Commission has operated with only two voting commissioners. . . .”), https://www.ussc.gov/sites/default/files/pdf/research-andpublications/annual-reports-and-sourcebooks/2019/2019-Annual-Report.pdf; U.S. Sentencing Comm’n, 2020 Annual Report 2–3 (2021)
(“Throughout much of FY 2020 and into FY 2021, the Commission
operated with only two voting commissioners . . . . Judge Reeves’s
term, however, has since expired,” leaving the Commission with a sole
3

43a
III. PROCEDURAL BACKGROUND
In August 2019, Mr. Bryant first filed an administrative remedy with the warden of his prison seeking compassionate release. When the warden did not respond
within 30 days, Mr. Bryant filed a motion for compassionate release. He argued that three grounds, in combination, constituted “extraordinary and compelling reasons”
for a reduction of his sentence. First, Mr. Bryant argued
that if he were sentenced today, his sentence would be
considerably shorter because the First Step Act did away
with the long consecutive sentence for stacked § 924(c)
charges and specified that “stacking” would not be allowed in cases like his.
Second, he argued that his long sentence was at least
partially a form of punishment for asserting his Sixth
Amendment right to trial, noting that he was subject to a
sentencing enhancement as a result, and that his co-defendants who pled guilty have long been released from
prison. Finally Mr. Bryant pointed to his glowing record
of rehabilitation during his 22 years in prison.
The government opposed Mr. Bryant’s motion, saying
his stated reasons did not qualify him for compassionate
release. Under the government’s reading of United States
Sentencing Guidelines § 1B1.13 Application Note 1(D)
(“Application Note 1(D)”), the District Court was only allowed to entertain a defendant-filed compassionate release motion based on those extraordinary and compelling
reasons enumerated in the policy statement of the Guidelines. But the government made no argument on the merits of whether Mr. Bryant’s reasons were “extraordinary
voting member), https://www.ussc.gov/sites/default/files/pdf/research-and-publications/annual-reports-and-sourcebooks/2020/2020Annual-Report.pdf.

44a
and compelling.” In a one-page order, the District Court
denied Mr. Bryant’s motion “for the reasons stated in the
Government’s response in opposition” to the motion. Mr.
Bryant timely appealed.
IV. DISCUSSION
Each of the seven circuits that has considered the issue 4 has held that the policy statement we consider here
applies only to compassionate release motions filed by the
BOP, as opposed to those filed by defendants on their own
behalf. See United States v. Brooker, 976 F.3d 228, 235–
36 (2d Cir. 2020); United States v. McCoy, 981 F.3d 271,
275–77, 280–84 (4th Cir. 2020); United States v. Shkambi,
993 F.3d 388, 392–93 (5th Cir. 2021); United States v.
Jones, 980 F.3d 1098, 1109–11 (6th Cir. 2020); United
States v. Gunn, 980 F.3d 1178, 1180 (7th Cir. 2020);
United States v. Aruda, 993 F.3d 797, 799–802 (9th Cir.
2021) (per curiam); United States v. McGee, 992 F.3d
1035, 1048–51 (10th Cir. 2021). 5 I agree. Here, I will set
out why I believe this reading given by the majority of
courts is the only plausible reading of the policy statement
and why the majority’s interpretation is mistaken. Then I

I have not found even a dissenting or concurring opinion among
any of the circuit opinions deciding this issue that advocates for what
the majority does here. As I understand it, that means my two colleagues in the majority are the only federal appellate court judges in
the country to interpret the policy statement in the way they do here.
4

Although the majority points to a recent Eighth Circuit decision
as support for its conclusion, that Circuit expressly declined to reach
the question relevant here, of whether § 1B1.13 continues to apply to
compassionate-release motions filed after the passage of the First
Step Act. See United States v. Vangh, 990 F.3d 1138, 1141 n.3 (8th
Cir. 2021); Maj. Op. at 19. The decision today therefore remains alone
among courts of appeals in the conclusion it reaches.
5

45a
will turn to why the majority opinion’s purposivist analysis misses the mark.
A. The Policy Statement Plainly Applies Only to
Compassionate Release Motions Filed by the
BOP Director
The First Step Act changed the provisions governing
compassionate release of prisoners, as relevant to this appeal, to say the following:
[T]he court, upon motion of the Director of the Bureau
of Prisons, or upon motion of the defendant after the
defendant has fully exhausted all administrative
rights to appeal a failure of the Bureau of Prisons to
bring a motion on the defendant’s behalf or the lapse
of 30 days from the receipt of such a request by the
warden of the defendant’s facility, whichever is earlier,
may reduce the term of imprisonment . . . if it finds
that . . . extraordinary and compelling reasons warrant
such a reduction.
18 U.S.C. § 3582(c)(1)(A)(i).
Congress specified that “[r]ehabilitation of the defendant alone shall not be considered an extraordinary and
compelling reason,” but it otherwise asked the Sentencing
Commission to “describe what should be considered extraordinary and compelling reasons for sentence reduction.” 28 U.S.C. § 994(t). And, when adjudicating compassionate release motions, the district court must ensure
that any sentence reduction is “consistent with applicable
policy statements issued by the Sentencing Commission.”
18 U.S.C. § 3582(c)(1)(A).
The only policy statement the Sentencing Commission
has issued that describes “extraordinary and compelling”
states, in relevant part:

46a
Upon motion of the Director of the Bureau of Prisons
under 18 U.S.C. § 3582(c)(1)(A), the court may reduce
a term of imprisonment . . . if, after considering the
factors set forth in 18 U.S.C. § 3553(a), to the extent
that they are applicable, the court determines that—
(1)(A) Extraordinary and compelling reasons warrant
the reduction.
USSG § 1B1.13(1)(A) (emphasis added). Then there is an
application note following this policy statement that specifies “extraordinary and compelling reasons” exist when a
defendant presents one of a set of medical, age-related, or
family circumstances, or: “[a]s determined by the Director of the Bureau of Prisons, there exists in the defendant’s case an extraordinary and compelling reason other
than, or in combination with,” the specific reasons outlined in the application note. USSG § 1B1.13 app. n.1(D)
(emphasis added).
By its express terms, the policy statement applies only
to motions brought by the Director of the BOP. See
Brooker, 976 F.3d at 235 (“Turning to the text of Guideline
§ 1B1.13, it is manifest that its language is clearly outdated and cannot be fully applicable.” (emphasis added));
Jones, 980 F.3d at 1109 (“Examining the four corners of
§ 1B1.13 alone, it becomes immediately apparent that the
policy statement does not wholly survive the First Step
Act’s promulgation.” (emphasis added)). Under the First
Step Act defendants can now bring compassionate release
motions on their own behalf, but it did not take away the
BOP Director’s longstanding ability to file these motions
as well. 18 U.S.C. § 3582(c)(1)(A). I say this means the policy statement at issue here survives insofar as it applies to
those motions brought by BOP. But BOP filed no motion
here. Mr. Bryant filed his own motion for compassionate

47a
release, so this policy statement, and accompanying application note, simply are not “applicable” to his motion. See
Gunn, 980 F.3d at 1180 (“[T]he Sentencing Commission
has not yet issued a policy statement ‘applicable’ to” a motion brought by a defendant on his own behalf).
And here is what I think the majority gets wrong. The
majority says that, even though the policy statement expressly cabins itself to motions brought by the BOP Director, it is still an “applicable” policy statement. And this
has the effect of limiting federal judges from considering
anything other than what the BOP considers an “extraordinary and compelling reason” justifying compassionate
release. Thus, the courts are confined to the footprint
made by BOP. And again, the First Step Act was meant
to address BOP’s poor record on allowing compassionate
release.
In arriving at its ruling that the policy statement is “applicable” to even defendant-filed motions for compassionate release the majority relies primarily on dictionary definitions of the word “applicable.” The majority says the
policy statement is “applicable” because that means it is
“capable of being applied” and “relevant” to Mr. Bryant’s
motion. Maj. Op. at 15–18. And because the majority believes the § 1B1.13 policy statement applies to defendantfiled motions like Mr. Bryant’s, courts are not allowed to
decide, independent of the criteria set forth by BOP,
whether extraordinary and compelling reasons exist.
This interpretation fails to persuade for several reasons. First, the majority’s dictionary-based theory about
when a policy statement may be “applicable” flies in the
face of the statement’s plain text that tells us when it is

48a
actually “applicable.”6 See Shkambi, 993 F.3d at 392
([T]he text of the commentary confirms the limited applicability of § 1B1.13 . . . . That note expressly limits the
policy statement’s applicability to motions filed by the
BOP.” (emphasis added)). There is simply no need to rattle off dictionary definitions of “applicable,” see Maj. Op.
at 15–18 (listing several different definitions of “applicable”), when the policy statement itself tell us when it applies.
Second, the majority’s definitional argument proves
too much, and at the same time, too little. Under the majority’s theory, any policy statement (on any subject) that
is “capable of being applied” would be “applicable,” without regard to the Sentencing Commission’s purpose in
promulgating the policy to begin with. For example, assume the Commission issues a policy statement tomorrow, saying it “applied only to motions filed by the BOP
director,” and also explicitly saying that courts are to adjudicate what counts as “extraordinary and compelling”
for defendant-filed motions independently of the views of
the BOP director. Under the majority’s theory, because
even this policy statement is still “capable of being applied” to motions filed by defendants, judges would still be
confined to the BOP criteria. Also, the fact that a policy
statement may offer “relevant” guidance does not make
the statement binding. For example, it is quite common
for courts to look to other provisions in a statute to determine whether a word or phrase can be interpreted to have
a consistent meaning throughout and to give meaning to
varying language within a statute. See In re Failla, 838
F.3d 1170, 1176–77 (11th Cir. 2016) (“The presumption of
6
For the same reason, the majority’s argument based on the title
of the statement is of no moment. Maj. Op. at 21. The general title
does not override the specific language of the policy statement.

49a
consistent usage instructs that a word or phrase is presumed to bear the same meaning throughout a text and
that a material variation in terms suggests a variation in
meaning.” (quotation marks omitted and alteration
adopted)). Although other provisions may be “relevant,”
they would not necessarily be “applicable.”
Third, in advancing its definitional argument, the majority asserts that “[t]here is no question that 1B1.13 is
the policy statement the Commission adopted to comply
with th[e] statutory mandate.” Maj. Op. at 20. But again,
the fact that the policy statement applies to some compassionate release motions doesn’t mean it applies to them
all. 7 And it is worth remembering that, even absent a policy statement, federal judges have authority to adjudicate
whether a defendant has offered “extraordinary and compelling” reasons warranting a sentence reduction. The
statute merely requires that courts’ decisions on compassionate release motions be “consistent with” any applicable policy statement. 18 U.S.C. § 3582(c)(1)(A). As the
Seventh Circuit put it, “‘Consistent with’ differs from ‘authorized by.’” Gunn, 980 F.3d at 1180.
There is also the matter of fidelity to the text. I find it
noteworthy that in insisting the policy statement is “applicable” to Mr. Bryant’s motion, the majority has to bluepencil the statement and application note to get around

7 The majority’s attempted textualist analysis of the language in
other courts’ opinions also fails. Maj. Op. at 20–21. First, the opinions
the majority cites did not interpret whether the policy statement was
“applicable” for the purposes of 18 U.S.C. § 3582(c)(1)(A). And second, the fact that some courts find that the statement’s substantive
criteria offers guidance in interpreting “extraordinary and compelling” in some cases does not tell us whether the policy statement is
binding as to motions filed by defendants.

50a
phrases that explicitly address the scope of the statement’s applicability. Most obviously, there is the phrase
“[u]pon motion of the Director of the Bureau of Prisons.”
USSG § 1B1.13. And the application note also specifies
that “[a] reduction under this policy statement may be
granted only upon motion by the Director of the Bureau
of Prisons.” USSG § 1B1.13 app. n.4 (emphasis added).
Yet even in the face of these phrases, the majority tells us
the limitations of the policy statement also apply to motions filed not by the BOP, but by the inmates.
The majority says its application of the policy statement to motions other than those filed by the Bureau of
Prisons is okay because the phrases confining it to BOP
motions are merely non-operative “prefatory phrases.”
Maj. Op. at 31–34. There are at least two errors with this
analysis. First, turnabout is fair play. If these two phrases
that conflict with the majority’s interpretation can be dismissed as non-operative, prefatory phrases, then why
isn’t the same true of the phrase “[a]s determined by the
Director of the Bureau of Prisons” in Application Note
1(D)? After all, if this language is merely non-operative
and prefatory, then federal judges could just as easily
make the determination. As the majority recognizes, at
the time the Sentencing Commission promulgated that
note, the only entity empowered to bring motions was the
Director of the BOP. Id. at 34. That being the case, saying
that the BOP Director can determine what “other reasons” are “extraordinary and compelling” puts no limit on
what those reasons may be. And this characteristic is
shared by the other phrases the majority finds non-operative. The language only reflected the procedure provided
for by “the statute as it existed at the time the policy statement was enacted.” Id. at 32. If we are striking any prefatory language from the policy statement and application
note, shouldn’t we strike it all?

51a
Second, even if these phrases could have been characterized as prefatory before enactment of the First Step
Act, that characterization doesn’t work now that the First
Step Act is law. These phrases no longer “paraphras[e]
the statute.” Id. At least, not the whole statute. Instead,
the phrases still parallel the language in the provision that
empowers BOP to file compassionate release motions.
And it is to that version of the statute that this statement
applies. The majority opinion turns a blind eye to the impact of the First Step Act on the language of the policy
statement. It says that Congress changed the language of
the compassionate release statement “in the knowledge
that 1B1.13 was the ‘applicable’ policy statement.” Id. at
30. But Congress also knew that the policy statement explicitly limited itself to motions filed by the BOP Director.
The majority offers no reason to think that Congress intended for that policy statement to apply to the entirely
new category of compassionate release motions allowed
by the First Step Act.
In saying that the Commission could not possibly have
intended to “distinguish[] between a BOP-filed motion
and some other kind of motion that did not exist when the
policy statement was adopted,” the majority engages in
the same type of “purposivist” analysis it criticizes our sister circuits for engaging in. See id. at 35–36. While of
course the “purpose and context” of a statute or regulation remain relevant to our interpretive task, purpose and
context cannot override the plain text of the statement.
See id. at 26–27, 19. 8 See Bostock v. Clayton County, 590
8 It is perfectly

plausible that the Sentencing Commission saw the
need to give specific instructions to BOP about any motions for compassionate release it might file, since BOP has demonstrated neither
the capacity nor the apparent willingness to recognize when extraordinary and compelling reasons warrant a sentence reduction. See gen-

52a
U.S. ___, 140 S. Ct. 1731, 1737 (2020) (“When the express
terms of a statute give us one answer and extratextual
considerations suggest another, it’s no contest. Only the
written word is the law, and all persons are entitled to its
benefit.”).
The majority’s interpretation requires us to strike at
least two phrases from the policy statement and accompanying application note. In contrast, the interpretation
adopted by the Second, Fourth, Fifth, Sixth, Seventh,
Ninth and Tenth Circuits “preserv[es] as much of
§ 1B1.13 that can be saved.” Jones, 980 F.3d at 1111. The
compassionate release statute plainly offers two vehicles
for compassionate release: (1) motions brought by the
BOP Director and (2) motions brought by defendants. The
policy statement applies only to those brought by the BOP
Director, which was the only vehicle in existence when it
was written. Our interpretation ought to end there.
B. The Majority’s Interpretation Results in an Unlawful Sub-Delegation of Authority to BOP
The majority’s interpretation also turns a lawful application note into an unlawful one. Congress delegated the
authority to determine the meaning of “extraordinary and
compelling reasons” to the Sentencing Commission, not
BOP. See 18 U.S.C. § 994(t). An agency cannot delegate to
another agency powers that Congress did not give that
second agency. Bayou Lawn & Landscape Servs. v. Sec’y
of Labor, 713 F.3d 1080, 1084–85 (11th Cir. 2013) (“Even
if it were not axiomatic that an agency’s power to promulgate legislative regulations is limited to the authority delegate[d] to it by Congress, we would be hard-pressed to
erally The Federal Bureau of Prisons’ Compassionate Release Program; The Impact of an Aging Inmate Population on the Federal
Bureau of Prisons.

53a
locate that power in one agency where it had been specifically and expressly delegated by Congress to a different
agency.” (citation omitted)).
Before the First Step Act, Application Note 1(D) effected no illegal sub-delegation because only BOP could
file a compassionate release motion. The Application Note
merely gave BOP discretion over its own motions. But
now, reading the Application Note in line with the majority’s interpretation, BOP is suddenly empowered to significantly restrain the universe of available “other reasons” for defendants seeking compassionate release on
their own behalf. And Congress never gave BOP this authority. The Sentencing Commission is the only agency
that can “describe what should be considered extraordinary and compelling reasons for sentence reduction.” 28
U.S.C. § 994(t). 9 The Commission cannot lend this authority to the BOP Director any more than it can to the Administrator of the Environmental Protection Agency.
Therefore, even if the majority’s interpretation were correct, it would render Application Note 1(D) invalid. It
would still not be binding as to Mr. Bryant’s motion.
The majority says that “no party has raised” the issue
of illegal sub-delegation in this case. Maj. Op. at 43–44 n.6.
In so saying, the majority ignores Mr. Bryant’s initial
brief, which explicitly raised this argument. Appellant’s
Br. at 39–41. The majority’s failure to address this issue
cannot properly be blamed on Mr. Bryant.

9

Of course, the courts can still adjudicate what constitutes “extraordinary and compelling reasons” absent guidance from the Sentencing Commission because the courts’ decisions must be merely
“consistent with” any applicable policy statement. 18 U.S.C. § 3582
(c)(1)(A).

54a
C. The Majority’s Purposivist Argument Is Misplaced
The majority goes to great lengths to explain why its
interpretation squares with the 1984 Sentencing Reform
Act. See Maj. Op. at 24–27. But it does not explain the
large regard it gives the purpose of this 1984 statute, in
contrast with the little regard it gives to the purpose of
the much more recent First Step Act. After all, it is the
First Step Act that gave rise to the interpretive questions
Mr. Bryant’s case presents to us today. And even though
we face questions brought on by enactment of the First
Step Act, the majority explicitly criticizes our sister circuits for supporting their textualist analysis with a discussion of its purpose. Id. at 34. Nevertheless, the majority
does the exact same thing, except it supports its analysis
with a discussion of the purpose of the 1984 Act.
The majority characterizes the changes that the First
Step Act brought to the compassionate release system as
a rather minor procedural amendment. Id. at 3–4. But
that ignores the transformational intent and purpose of
the First Step Act, the “most meaningful criminal-justice
reform at the federal level in decades.” Brief of the American Conservative Union Foundation Nolan Center for
Justice; the Cato Institute; Arthur Rizer; R Street Institute; and Brett Tolman as Amici Curiae Supporting Appellant and Reversal at 4.
First, the majority ignores that the Sentencing Reform
Act, in abolishing the federal parole system, and the First
Step Act, in eliminating BOP’s gatekeeping function over
compassionate release, in fact advanced a common goal:
keeping sentencing “within the province of the judiciary.”
S. Rep. No. 98-225, at 54 (1983) (emphasis added). And it
is hardly surprising that the First Step Act would prefer

55a
that the courts make compassionate release determinations without unnecessary intervention by BOP, given
that agency’s failure to “properly manage the compassionate release program.” The Federal Bureau of Prisons’ Compassionate Release Program at 11.
Second, the First Step Act empowers defendants to
seek compassionate release not only when BOP does not
act quickly enough on the defendant’s request, but also
when BOP altogether refuses to act. See 18 U.S.C.
§ 3582(c)(1)(A). That tells us that Congress was concerned
not only with BOP’s ability to timely review compassionate release requests, but also with its substantive judgment about what circumstances warrant compassionate
release. Reading the policy statement as the majority
does re-inserts BOP into the process of establishing substantive criteria for compassionate release, thus undermining Congress’s intent.
To the extent the majority shares the government’s
policy concerns about granting district courts “unfettered
discretion” and fears about inconsistent sentence reduction outcomes, those concerns are vastly overstated.
Judges are not given “unfettered” discretion. To the contrary, they are charged with finding whether there are
“extraordinary and compelling” reasons warranting sentence reduction. See 18 U.S.C. § 3582(c)(1)(A). And not
just any reason will do. As the Seventh Circuit points out,
“extraordinary and compelling” is hardly the type of
standard that invites “a sort of Wild West in court.” Gunn,
980 F.3d at 1180. And, of course, this Court routinely uses
its appellate jurisdiction to reverse district courts it perceives to have exceeded statutory bounds. The Sentencing
Commission is also empowered to provide more detailed
guidance to courts about what circumstances warrant
compassionate release, but it has not done so.

56a
The majority opinion is also noteworthy in that it expresses concerns about disparities in sentencing only as
to sentences being reduced too much. When a court becomes too “compassionate” toward criminal defendants
the issue of disparity then warrants attention. As Mr.
Bryant rightfully points out, the government, and today,
the majority opinion, express no concerns “about arbitrary outcomes and unwarranted sentencing disparities
created by federal prosecutors.” And Mr. Bryant’s case
presents a powerful example of how the amended compassionate release statute could be applied to correct patent
disparities among defendants who engaged in the same
conduct. Mr. Bryant was sentenced to a term just shy of
five decades—a term that far exceeded those of his coconspirators who pled guilty—in part because he exercised his Sixth Amendment right to trial and because he
was subject to a mandatory penalty for “stacked” firearm
offenses that Congress has since drastically lowered. 10 A
number of his co-defendants, involved in the exact same
scheme, re-entered society more than a decade ago. I view
this disparity as worthy of concern—and a second look under the compassionate release statute.
Mr. Bryant has already served decades in prison. Even
with the knowledge that he may never be allowed to reenter society, he has devoted significant efforts to rehabilitate himself. The majority opinion defies the text of the
First Step Act and the policy statement and undermines
the monumental efforts Congress undertook to transform
compassionate release. I fear the majority opinion today
10 And the fact that Congress did not decide to make every defendant sentenced to stacked § 924(c) offenses categorically eligible
for retroactive sentencing relief does not mean that the change to
§ 924(c) cannot, in combination with other factors, give rise to extraordinary and compelling reasons warranting a sentence reduction.

57a
sets our Court on a path, alone among Courts of Appeal,
that will deprive Mr. Bryant and thousands like him in the
states of Georgia, Florida, and Alabama of access to compassionate release.
For these reasons, I dissent.

58a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
SAVANNAH DIVISION

CR 497-181-1

UNITED STATES OF AMERICA
v.
THOMAS BRYANT, JR.

Filed: October 2, 2019
ORDER
Presently before the Court is Defendant’s “Motion for
Compassionate Release.” Upon due consideration, this
motion (doc. 259) is DENIED for the reasons stated in the
Government’s response in opposition filed on September
23, 2019.
ORDER ENTERED at Augusta, Georgia this 2nd day
of October, 2019.
/s/
_________________________
J. Randal Hall, Chief Judge
United States District Court
Southern District of Georgia

59a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
SAVANNAH DIVISION

Case No. 4:97CR00181-1
USM No. 09594-021

UNITED STATES OF AMERICA
v.
THOMAS BRYANT, JR.

Date of Original Judgment: January 28, 1998
Date of Previous Amended Judgment: September 8,
2008
ORDER REGARDING MOTION FOR SENTENCE
REDUCTION PURSUANT TO 18 U.S.C.
§ 3582(C)(1)(B)
Upon motion of the [X] defendant [ ] the Director of the
Bureau of Prisons [ ] the court under 18 U.S.C. § 3582
(c)(1)(B) for a reduction in the term of imprisonment
based on a guideline sentencing range that has subsequently been lowered and made retroactive by the First
Step Act of 2018 pursuant to Pub. L. No. 115-391, and having considered such motion, and taking into account the

60a
policy statement set forth at USSG § 1B1.10 and the sentencing factors set forth in 18 U.S.C. § 3553(a), to the extent that they are applicable,
IT IS ORDERED that the motion is:
[x] DENIED. [ ] GRANTED and the defendant’s previously imposed sentence of imprisonment (as reflected in
the last judgment issued) of ___ months is reduced to ___.
Except as otherwise provided, all provisions of the judgment dated January 28, 1998 shall remain in effect. IT IS
SO ORDERED.
Order Date: 10/2/2019
/s/
_________________________
J. Randal Hall, Chief Judge
United States District Court
Southern District of Georgia

61a
APPENDIX D
STATUTORY AND SENTENCING GUIDELINES
PROVISIONS INVOLVED

Title 18, United States Code, Section 3582(c)(1)(A)
provides in relevant part:
(c) Modification of an Imposed Term of Imprisonment.—The court may not modify a term of imprisonment once it has been imposed except that—
(1) in any case—
(A) the court, upon motion of the Director of the
Bureau of Prisons, or upon motion of the defendant
after the defendant has fully exhausted all administrative rights to appeal a failure of the Bureau of
Prisons to bring a motion on the defendant’s behalf
or the lapse of 30 days from the receipt of such a
request by the warden of the defendant’s facility,
whichever is earlier, may reduce the term of imprisonment (and may impose a term of probation
or supervised release with or without conditions
that does not exceed the unserved portion of the
original term of imprisonment), after considering
the factors set forth in section 3553(a) to the extent
that they are applicable, if it finds that—
(i) extraordinary and compelling reasons
warrant such a reduction; or
(ii) the defendant is at least 70 years of age,
has served at least 30 years in prison, pursuant to a sentence imposed under section
3559(c), for the offense or offenses for which

62a
the defendant is currently imprisoned, and
a determination has been made by the Director of the Bureau of Prisons that the defendant is not a danger to the safety of any
other person or the community, as provided
under section 3142(g);
and that such a reduction is consistent with
applicable policy statements issued by the
Sentencing Commission
* * *
The United States Sentencing Guidelines, Section
1B1.13 provides in relevant part:
Upon motion of the Director of the Bureau of Prisons
under 18 U.S.C. § 3582(c)(1)(A), the court may reduce
a term of imprisonment (and may impose a term of supervised release with or without conditions that does
not exceed the unserved portion of the original term of
imprisonment) if, after considering the factors set
forth in 18 U.S.C. § 3553(a), to the extent that they are
applicable, the court determines that—
(1) (A) Extraordinary and compelling reasons warrant the reduction; or
(B) The defendant (i) is at least 70 years old; and
(ii) has served at least 30 years in prison pursuant
to a sentence imposed under 18 U.S.C. § 3559(c) for
the offense or offenses for which the defendant is
imprisoned;
(2) The defendant is not a danger to the safety of
any other person or to the community, as provided
in 18 U.S.C. § 3142(g); and

63a
(3) The reduction is consistent with this policy
statement.
Commentary
Application Notes:
1. Extraordinary and Compelling Reasons.—Provided
the defendant meets the requirements of subdivision
(2), extraordinary and compelling reasons exist under
any of the circumstances set forth below:
(A) Medical Condition of the Defendant.—
(i) The defendant is suffering from a terminal
illness (i.e., a serious and advanced illness with
an end of life trajectory). A specific prognosis
of life expectancy (i.e., a probability of death
within a specific time period) is not required.
Examples include metastatic solid-tumor cancer, amyotrophic lateral sclerosis (ALS), endstage organ disease, and advanced dementia.
(ii) The defendant is—
(I) suffering from a serious physical or medical condition,
(II) suffering from a serious functional or
cognitive impairment, or
(III) experiencing deteriorating physical or
mental health because of the aging process,
that substantially diminishes the ability of
the defendant to provide self-care within
the environment of a correctional facility
and from which he or she is not expected to
recover.

64a
(B) Age of the Defendant.—The defendant (i) is at
least 65 years old; (ii) is experiencing a serious deterioration in physical or mental health because of
the aging process; and (iii) has served at least 10
years or 75 percent of his or her term of imprisonment, whichever is less.
(C) Family Circumstances.—
(i) The death or incapacitation of the caregiver
of the defendant’s minor child or minor children.
(ii) The incapacitation of the defendant’s spouse
or registered partner when the defendant
would be the only available caregiver for the
spouse or registered partner.
(D) Other Reasons.—As determined by the Director of the Bureau of Prisons, there exists in the defendant’s case an extraordinary and compelling
reason other than, or in combination with, the reasons described in subdivisions (A) through (C).
2. Foreseeability of Extraordinary and Compelling
Reasons.—For purposes of this policy statement, an
extraordinary and compelling reason need not have
been unforeseen at the time of sentencing in order to
warrant a reduction in the term of imprisonment.
Therefore, the fact that an extraordinary and compelling reason reasonably could have been known or anticipated by the sentencing court does not preclude
consideration for a reduction under this policy statement.
3. Rehabilitation of the Defendant.—Pursuant to 28
U.S.C. § 994(t), rehabilitation of the defendant is not,
by itself, an extraordinary and compelling reason for
purposes of this policy statement.

65a
4. Motion by the Director of the Bureau of Prisons.—
A reduction under this policy statement may be
granted only upon motion by the Director of the Bureau of Prisons pursuant to 18 U.S.C. § 3582(c)(1)(A).
The Commission encourages the Director of the Bureau of Prisons to file such a motion if the defendant
meets any of the circumstances set forth in Application Note 1. The court is in a unique position to determine whether the circumstances warrant a reduction
(and, if so, the amount of reduction), after considering
the factors set forth in 18 U.S.C. § 3553(a) and the criteria set forth in this policy statement, such as the defendant’s medical condition, the defendant’s family
circumstances, and whether the defendant is a danger
to the safety of any other person or to the community.
This policy statement shall not be construed to confer
upon the defendant any right not otherwise recognized in law.
5. Application of Subdivision (3).—Any reduction
made pursuant to a motion by the Director of the Bureau of Prisons for the reasons set forth in subdivisions (1) and (2) is consistent with this policy statement.
Background: The Commission is required by 28
U.S.C. § 994(a)(2) to develop general policy statements regarding application of the guidelines or other
aspects of sentencing that in the view of the Commission would further the purposes of sentencing (18
U.S.C. § 3553(a)(2)), including, among other things,
the appropriate use of the sentence modification provisions set forth in 18 U.S.C. § 3582(c). In doing so, the
Commission is authorized by 28 U.S.C. § 994(t) to “describe what should be considered extraordinary and
compelling reasons for sentence reduction, including

66a
the criteria to be applied and a list of specific examples.” This policy statement implements 28 U.S.C.
§ 994(a)(2) and (t).

